No.

In the

Supreme Court of the United States

JAMES EDWARD SANDFORD, III
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

Petition for Writ of Certiorari
To the United States Court of Appeals
For the Second Circuit

PETITION FOR WRIT OF CERTIORARI

Robert W. Wood
Counsel of Record
2080 West Ridge Road
Rochester, New York 14626
(585) 227-9830
Robertwoodatty@yahoo.com

Questions Presented
1.

Should the Court grant certiorari to resolve the Circuit split regarding

the plain error rule between the Second and Fourth Circuits as it applies to
18 U.S.C. 922 (g) (Felon in possession of a weapon) where Petitioner was
convicted without an allegation of the essential element of knowledge of
felon status in the indictment and without any proof of knowledge of his
felon status established at trial?
2.

Should the Court grant certiorari where Petitioner received wrong and

incomplete advice about the use of drug enhancements at sentencing where
his attorney admitted at a hearing that he was not aware that such
enhancements could be used if Petitioner was not convicted of the drug
charges but they were in fact used to dramatically increase his sentence
where Petitioner was convicted of Tampering with a witness?

i

Parties and Related Cases
The names of all parties appear on the caption of the case on the cover
page and there are no other additional parties. The related cases are United
States v. James Edward Sandford, Western District of New York, Docket
No. 15: 6101 judgment date on the jury trial conviction and sentence January
4, 2018 and judgment date on the Rule 33 motion December 7, 2018. United
States v. James Edward Sandford, United States Court of Appeals, Second
Circuit, Docket No. 18-0288, and United States v. James Edward Sandford,
Docket No. 18-3703, consolodated appeals with joint arguments and
Summary Order and Mandate filed on May 29, 2020.

ii

Table of Contents

Opinions and Proceedings Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional and Statutory Provisions Involved. . . . . . . . . . . . . . . . . . . . . 2
Parties and Related Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Reasons for Granting the Petition
1.

The Court of Appeals decision did not apply
this Court’s ruling in Rehaif v. United States,
139 S.Ct. 2191 (2019) to Petitioner’s 18 U.S.C.
§ 922 (g) conviction. This decision is in conflict
with the Fourth Circuit on the plain error rule. . . . . . . . . . . . . 7

2.

The Fourth Circuit’s recent decision in Medley
has occasioned an additional circuit split with
the Second Circuit. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

3.

The evidence was insufficient to establish Mr.
Sandford’s guilt of § 922 (g). . . . . . . . . . . . . . . . . . . . . . . . . .10

4.

The Court should grant certiorari because the
record establishes Petitioner was denied his
Sixth Amendment right to the effective
assistance of counsel. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

Conclusion………………………………………………………………….17

iii

Appendix
Table of Contents
Materials from Court of Appeals

Appendix A
Summary Order and Mandate reported
At 814 Fed Appx 649

Materials from the District Court
Appendix B
Decision and Order filed 12/07/18
Appendix C
Decision and Order filed 5/25/17

iv

TABLES OF AUTHORITIES
CASES
Apprendi v. New Jersey, 530 U.S. 466 (2000) . . . . . . . . . . . . . . . . . . . . . . 9
Jones v. United States, 526 U.S. 227 (1999) . . . . . . . . . . . . . . . . . . . . . . . .9
Laffler v. Cooper, 566 U.S. 166 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Rehaif v. United States, 139 S.Ct. 2191 (2019) . . . . . . . . . . . . . . . . ..5,6, 8, 9
Strickland v. Washington, 466 U.S. 688 (1984) . . . . . . . . . . . . . . . . . . .16,17
United States v. Arteca, 411 F. 3d 64 (1st Cir. 2005) . . . . . . . . . . . . . . . . . .15
United States v. Bayes, 210 F. 3d 64 (1st Cir. 2000) . . . . . . . . . . . . . . . . . . 14
United States v. Gary, 954 F. 3d 194 (4th Cir. 2020) . . . . . . . . . . . . . .7,8, 10
United States v. Medley, 972 F. 3d 493 (4th Cir. 2020) . . . . . . . . . . . . . . . . . 9
United States v. Miller, 954 F. 3d 551 (2nd Cir. 2020) . . . . . . . . . . . . .6,7, 10
United States v. Sandford, 814 Fed Appx 649 (2nd Cir. 2020) . . . . . . .. . . 1, 7
United States v. Watts, 519 U.S. 518 148 (1997) . . . . . . . . . . . . . . . . . .14, 16
UNITED STATES CONSTITUTION
Amendment V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Amendment VI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTES
18 U.S.C. § 922 (g) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2,3, 4, 10, 17
18 U.S.C. § 922 (j) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3, 5
v

18 U.S.C.§ 924 (c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3,5
18 U.S.C. § 3231 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
18 U.S.C. § 3742 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

RULES AND GUIDELINES
Federal Rules of Appellate Procedure Rule (4 b) . . . . . . . . . . . . . . . . . . . . . .1
Federal Rules of Criminal Procedure Rule 29 . . . . . . . . . . . . . . . . . . . . 10, 11
Federal Rules of Criminal Procedure Rule 33 . . . . . . . . . . . . . . . . . . 3,6,9,11
United States Sentencing Guidelines 2K1.1 (c) (1) . . . . . . . . . . . . . . 5,12,13

vi

Petitioner James Edward Sandford, III respectfully prays that a
writ of certiorari issue to review the judgment and opinion of the United
States Court of Appeals for the Second Circuit dated May 29, 2020.
Opinions and Proceedings Below
The decision of the Court of Appeals docket no.18-0288-cr and 183703-cr, is set forth in a Summary Order reported decision, United States v.
Sandford, 814 Fed. Appx 649, as set forth in the Appendix materials. The
district court case was United States v. Sandford et al, Western District of
New York docket no. 15:6101 (DGL), as set forth in the Appendix materials.
Jurisdiction
The decision of the Court of Appeals was entered on May 29, 2020.
This Court’s jurisdiction is invoked under 28 U.S.C. § 1254(1).
The basis for subject matter jurisdiction in the district court was 18
U.S.C. § 3231 (jurisdiction over offenses against the United States). The
basis for the jurisdiction of the court of appeals was 28 U.S.C. §1291
(appeals from final judgments of district courts), Rule 4(b), Fed. R. App.
Proc. (appeals from criminal convictions), 18 U.S.C. § 3557 and 18 U.S.C. §
3742 (appeals from sentences). The time to file this Writ of Certiorari was
extended by this Court by Order dated March 19, 2020 extending deadlines.
1

Constitutional and Statutory Provisions Involved
U.S. Constitution, Amendment V
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in cases
arising in the land or naval forces, or in the militia, when in actual service in
time of war or public danger; nor shall any person be subject for the same
offense to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.
U. S. Constitution, Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district wherein
the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of
the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
18 U.S.C. § 922(g)
(g)

It shall be unlawful for any person-

2

(1)who has been convicted in any court of, a crime punishable
by imprisonment for a term exceeding one year; to ship or transport in
interstate or foreign commerce, or possess in or affecting commerce, any
firearm or ammunition; or to receive any firearm or ammunition which has
been shipped or transported in interstate or foreign commerce.
Statement of the Case
Petitioner/Appellant was convicted on January 4, 2017 of one count of
Possession of a Weapon under 18 U.S.C. § 922 (g), one count of Possession
of a Weapon under 18 U.S.C. § 922 (j) and Tampering with a Witness. He
had also been indicted for 10 counts of Distributing a Controlled Substance
analogue (synthetic or “fake”) marijuana and one count of 924 (c) drug
trafficking with a weapon for which the jury did not reach a verdict and the
Court declared a mistrial. He was represented at trial by Matthew Nafus,
Esq.
After the presentence report was filed, Mr. Nafus was relieved as
counsel for Defendant/Appellant based upon a complaint letter
Defendant/Appellant had written to the Court and later presented in open
court at an appearance. Thereafter, Defendant/Appellant filed a pro-se
Motion pursuant to Rule 33 to vacate the judgment on the grounds of
ineffective assistance of counsel on the grounds that Mr. Nafus had

3

improperly advised him as to his potential sentence he could receive. (See
Court of Appeals Appendix hereafter “CA-33”).
The sentence recommended in the PSR was 480 months and
Defendant/Appellant alleged that he was improperly advised that he would
receive a much lower sentence after trial assuming that he was not convicted
of the drug charges. The matter was eventually set down for a hearing
which was scheduled for May 30, 2018.
At the hearing there was undisputed testimony taken from both
Petitioner and from Mr. Nafus and an Exhibit received that Mr. Nafus before
trial had calculated an estimated sentence on the Weapons charges alone of
46 to 57 months and also that he had testified that he did not believe that the
Tampering charge would add much to his sentence if Petitioner was
convicted. (A-508).
It was also undisputed that Petitioner was confident that he could
“beat” the drug charges and that if he did, that would result in a lower
sentence than the offers he had been receiving from the Government which
were in the range of 8 to 10 years, and just before trial to 78 to 87 months.
When the trial concluded, Petitioner and his attorney were relieved
and elated because, as expected, he had been convicted of the Weapons
charges but had achieved a hung jury on the drug counts. There was little
concern about the conviction on the Tampering charge. After the PSR was
4

ordered, Mr. Nafus heard from the Government about an offer of 8 to 10
years which would satisfy the still pending drug counts.
This offer was relayed to petitioner who turned it down thinking that
he would take his chances on the new trial and expecting that he would
probably receive a sentence of no more than 57 months on the charges of
conviction. When the PSR was completed, the recommendation was 480
months, based upon Petitioner’s record which resulted in a Criminal History
Category of VI and implementation of the cross reference (USSG 2k1.1 (c)
(1)), which enhanced his sentence due to a large estimation of the amount of
synthetic drugs he had been estimated to have been dealing.
The offense level on the weapons charges were enhanced from 16 to
20 because of the drug charges. Then they were enhanced an additional 7
levels. He was sentenced to 156 months or 13 years, a sentence far greater
than the 78-87 months he was facing before the start of the trial when he
faced the drug counts which included an 18 U.S.C. 924 (c) count with a
mandatory minimum of five (5) years. After having “beaten” these charges,
and expecting a sentence near what his attorney had predicted, it is clear that
Petitioner was prejudiced from this result.
After the filing of the Notice of Appeal and during the pendency
thereof, this Court rendered its decision in Rehaif v. United States, 139 U.S.
2191 (2019). It should be noted that the Superceding Indictment herein did
5

not allege as an essential element knowledge that the Petitioner was aware of
his felon status. At trial, Petitioner stipulated that he had been previously
convicted of a felony but had not stipulated to knowledge of such felon
status.
While the appeal was pending, a hearing was ordered concerning
Petitioner’s Rule 33 motion at which was taken from Petitioner and Mr.
Nafus. The Rule 33 motion was ultimately denied and a notice of appeal
was filed with respect to that ruling.
The Court of Appeals consolidated both appeals for argument and
rendered a decision for both appeals in one summary order. (See Appendix
A).
Reasons for Granting the Petition
1.
The Court of Appeals decision did not apply this Court’s ruling in
Rehaif v. United States, 139 S. Ct. 2191 (2019) to Petitioner’s 18 U.S.C. §
922 g) conviction. This decision is in conflict with the Fourth Circuit on
the plain error issue.
The Second Circuit based its decision upon its previous holding in
United States v. Miller, 954 F. 3d 551 (2d Cir. 2020).1 Miller was factually
similar to Mr. Sandford’s case in that both defendants had stipulated at trial
that they had previously been convicted of felonies. In both cases however,
neither defendant stipulated that he had knowledge or awareness of the

1

A co-defendant of Mr. Miller, Dominique Mack, has a pending writ of certiorari before this court. (See
Docket No. 20-5407).

6

conviction at the time of the commission of the alleged offense. In each
case, the jury was instructed that knowledge of such conviction was not
required.
In Miller, as in Sandford, the Second Circuit reviewed the issue under
the plain error doctrine, which considers whether (1) there is an error; (2) the
error is clear or obvious, rather than subject to reasonable dispute; (3) the
error affected the appellant’s substantial rights; and (4) the error seriously
affects the fairness, integrity or public reputation of judicial proceedings,
954 F. 3d at 557-58.
The Second Circuit in Miller held that the first two prongs of plainerror review were satisfied. The Court could not determine whether the third
prong had been satisfied. It found that in the fourth prong – that affecting
the fairness, integrity and public reputation of the proceedings – had not
been met. Following Miller, the Second Circuit panel in Sandford reached
the same conclusion.
The decisions in Miller and Sandford are in direct contrast to the
Fourth Circuit decision in United States v. Gary, 954 F. 3D 194 (4th Cir.
2020). In Miller and Sandford the Second Circuit looked to the respective
PSRs to determine that both Appellants must have known that they had been
convicted of felonies.

7

The defendant in Gary at the time of his plea to 18 U.S.C. § 922 (g)
had been convicted of second degree burglary and had been sentenced to
eight (8) years, suspended after three years, of which he served 691 days.
There had been no acknowledgment during his Rule 11 canvass that Rehaif
knowledge was an element of the offense and he had not admitted to such
knowledge during the plea proceeding or elsewhere, 954 F. 3d at 199. As it
did with Mr. Sandford, the government argued that Gary must have been
aware that he had been convicted of a crime punishable by imprisonment of
more than one year, 554 F. 3d at 201 N. 5.
The Fourth Circuit Court held that “regardless of evidence in the
record that would tend to prove that Gary knew of his status as a convicted
felon”, 954 F. 3d at 207, the failure to inform him that by pleading guilty he
was admitting the Rehaif – knowledge element of the offense was structural
error that affected substantial rights. Acceptance of such a plea would
seriously affect the fairness, integrity or reputation of the proceedings
The Government’s motion for rehearing in Gary was denied on July 9,
2020. The Government immediately moved to stay that mandate. In its
motion, the government asserted that the Fourth Circuit’s Gary decision
Has created two rapidly broadening circuit splits and ‘an equally
profound schism with the Supreme Court’s whole approach to error
review and remediation.’ United States v. Gary, ---F. 3d ----, 2020
WL 3767152, at *1 (4th Cir. July 7, 2020) (Wilkinson, J., concurring

8

in denial of petition for rehearing en banc). Because a petition for a
writ of certiorari, if authorized, would set forth two substantial
questions for the Supreme Court, the Government respectfully
requests this Court grant its motion to stay the mandate.
United States Motion for Stay of Mandate United States v. Gary, Fourth Cir.
18-4578 (ECF #65) (filed July 8, 2020, granted July 9, 2020) at 5.
2.
The Fourth Circuit’s recent decision in Medley has occasioned an
additional circuit plain error split with the Second Circuit.
Almost three months after the Second Circuit decision was rendered
in this case, the Fourth Circuit rendered its decision in United States v.
Medley, 972 F. 3d 493 (4th Cir. Dec. 8/21/20). There the court ruled that the
failure of the Government to include the knowledge – of – status element in
the indictment constituted plain error. In this case the Indictment did not
allege in Count 12 that defendant had knowledge of his felon status. (CA42).
The Court cited precedents from this Court which “have long held that
an indictment that omits an essential element of an offense is deficient. See
Apprendi, 530 U.S. at 500-158 (Thomas, J. concurring) . . . Jones v. United
States, 526 U.S. 227, 243 n.6 (1999).
The Court also found the jury instructions which failed to instruct that
defendant must have had knowledge of his felon status at the time of his
commission of crime also constituted plain error. As in Gary, there is a split
in circuit authority with this case and Miller from the Second Circuit.
9

This Court should grant the petition in order to resolve this conflict
between the Court of Appeals for the Second Circuit and the Court of
Appeals for the Fourth Circuit.

3.

The evidence was insufficient to establish Mr. Sandford’s guilt of
§ 922 (g).
Mr. Sandford’s conviction must also be vacated on the ground that the

evidence before the jury was insufficient to sustain a conviction. In this
case, Mr. Sandford filed a Rule 29 motion which was denied by the court in
a written decision, (Appendix C). While Mr. Sandford did raise a plain error
argument at the Court of Appeals, he also argued that the lack of proof of
knowledge at trial rendered the evidence insufficient to sustain a conviction.
The insufficiency of the evidence challenge is independent of and not
subject to the plain error challenge which was addressed by the Court. The
Second Circuit, in its decision, did not address the sufficiency challenge.
Here, as stated, the facts were stipulated that Appellant had been
previously convicted of a felony at the time of the commission of the 922 (g)
offense alleged in Count 12 of the Superseding Indictment. The stipulation
did not set forth, nor did Appellant at any time admit he had knowledge of
such conviction.

10

4.
The Court should grant Certiorari because the record
establishes Petitioner was denied his Sixth Amendment right to the
effective assistance of counsel
Following his Rule 33 motion, the district court ordered a hearing at
which petitioner and his trial attorney both testified. Petitioner testified that
he received incomplete and wrong legal advice during the plea bargaining
stage of the proceedings, and after the trial.
In their testimony both Mr. Sandford and his attorney, Mr. Nafus,
agreed that Mr. Sandford had been told that there were three sets of charges
against him – the “drug” charges and the “weapons” charges, and the
“tampering” charge. (CA-260). They both agreed that Mr. Sandford had
been told he need not be concerned too much about the witness tampering
charge – even though it carried the longest maximum sentence of twenty
(20) years. (CA 176, A-275).
During the proceedings the Petitioner received numerous plea offers
both before and after the trial which he later testified he would have
accepted if they had been adequately explained to him, along with the
consequences of not accepting them. Specifically, Mr. Sandford expected
that he would not be convicted of the drug charges and he was not. In his
words, Mr. Sandford testified, that “(Mr. Nafus) never told me the drugs
would come back to haunt me”. (CA-203). They did. Applying
enhancements, the Court increased his sentence on the Tampering charge to
11

13 years. This was the charge Mr. Nafus told Mr. Sandford he “didn’t think
was the most serious charge” (CA-275) and which Mr. Nafus didn’t think he
wouldn’t get more than 3 to 4 years. (CA-311). Mr. Nafus admitted that he
never told Petitioner that at sentencing the Court could consider the drug
charges in determining his sentence on the Weapons and Tampering charges.
(CA-312). At his sentencing hearing the Judge’s comments almost
exclusively discussed Petitioner’s alleged drug conduct, for which he was
not convicted. (CA-120-144).
At the hearing Petitioner testified that Mr. Nafus told him that Judge
Larimer was more lenient than other judges on the Western District of New
York bench in Rochester. Mr. Nafus admitted that “I did tell him that he
would have a better chance on sentencing with Judge Larimer rather than
some other federal judges, absolutely”. This representation obviously also
turned out to be a poor prediction as Petitioner received an eleven step above
guidelines sentence.
By his own admission, Mr. Nafus never explained to the
Petitioner that even if he did “beat” the drug charges, they could be
considered as relevant conduct by the Court in sentencing the Petitioner on
Weapons counts and even more importantly, on the Tampering charge, for
which Petitioner faced a maximum sentence of 20 years. He was also never
told about possible exposure to the guideline cross reference (USSG 2 K 2.1
12

(c) (1)) which ultimately led to a Pre-Sentence recommendation of forty (40)
years.
After the trial was over and before preparation of the PSR, Mr. Nafus
met with the Petitioner again and told him that he had heard from the
prosecutor and that there were discussions about an 8 to 10 year sentence to
wrap up the entire indictment, including the drug charges, which would need
to be re-tried because of the hung jury. Even after trial, Mr. Nafus did not
research the sentencing issue sufficiently enough to find the Watts case and
its progeny and quickly advise and encourage Petitioner to accept the ten
year offer before the PSR comes out because the drug counts will
dramatically increase his sentencing exposure.
Petitioner turned down the ten year offer based upon Mr. Nafus’
previous statements that he could expect to receive 46 to 57 months based
upon the previous faulty guidelines calculations and he felt at that point he
would take his chances on the retrial.
Sometime thereafter, the pre-Sentence report came out with a
recommendation of a 40 year sentence. The report assessed relevant
conduct for the drug activity and came up with a very high amount of
synthetic drugs attributable to Petitioner’s activity. Objections filed by Mr.
Nafus established that he was not aware of well-established case law of this
Court that a sentencing court can consider acquitted conduct in applying
13

sentencing enhancements on counts of conviction using the lower
preponderance of the evidence standard at sentencing. (CA-504,509). (See
United States v. Watts, 519 U.S. 148 (1997). Such may also be used where
there is a hung jury, United States v. Bayes, 210 F. 3d 64 (1st Cir. 2000).
Since defense counsel was not aware of this basic case law, he never made
Petitioner aware of it during pre-trial or even post trial plea negotiations
where offers of 70 to 87 months and then after trial 8 to 10 years were
initially made to the Petitioner.
In its Summary Order, the Court of Appeals decision states however,
assuming arguendo “that Sandford’s counsel’s performance fell below an
objective standard of reasonableness” that no prejudice has been established
because Petitioner had been advised of the statutory maximum and his
attorney had told him he could get 15 to 25 years. The testimony of Mr.
Nafus, however was that he could get 15 to 25 years “if he was convicted of
everything”. (CA-310-311). It is not accurate, however, to say he would get
15 to 25 years where Petitioner was not convicted of the drug charges. Both
Petitioner and his attorney testified they were assuming they would “beat”
the drug charges in their sentencing calculations. Where petitioner did
“beat” the drug charges, and he was sentenced to 13 years after being told to
expect 46 to 57 months – that is prejudice.

14

In finding no prejudice, the Court of Appeals relied on its previous
holding in United States v. Arteca, 411 F. 3d 315 (2nd Cir. 2005). This case
is factually distinguishable from the facts here. There the Defendant had
entered a plea pursuant to a written plea agreement calling for a 46 to 57
month sentence. The Probation Report came back with a much higher
recommended sentence and the judge refused to grant defendant’s motion to
withdraw his plea.
This case is clearly distinguishable from the facts here because Mr.
Sandford was in fact told that he could receive 15 to 25 years if he was
convicted of the drug charges. If that did in fact occur, his lawyer’s advice
would have been correct. But in this case both he and his attorney had made
calculations assuming he would “beat” (or not be convicted) of the drug
charges. Mr. Nafus never told him that the drug charges could be used to
enhance his sentences on the Weapons and Tampering charges.
In his post-trial filings, Mr. Nafus said, in referring to passages of the
pre-sentence report referring to the drug charges: “After extensive legal
research, I have been unable to find any cases which permit a court to
sentence a defendant for alleged conduct which is currently pending a trial”
(referring to the hung counts which had been rescheduled for trial). (CA510).

15

In his Statement with Respect to Sentencing Factors, Mr. Nafus
asserted that the guideline sentence for the Weapons counts should be 46 to
57 months and the Tampering counts should be 37 to 46 months. (CA-504.
He again asserted that consideration of drug enhancements would violate
Petitioner’s Sixth Amendment rights. The filings demonstrate further proof
that he obviously had never warned petitioner that these enhancements could
be used at sentencing. He also did not know of this court’s holding in
United States v. Watts, 519 U.S. 148 (1997) that even acquitted conduct can
be considered by the Court if found by a preponderance of the evidence.
Clearly there was prejudice here where the testimonial and
documentary evidence shows that petitioner received a much higher
sentence than he expected after receiving a favorable result after trial. Both
Petitioner and his lawyer expected a conviction on the Weapons counts and
the Tampering charges were “50/50”. (A-293). An acquittal, or at least no
conviction on the drug charges would be a good result. Yet the sentence was
much higher than the numbers being discussed before trial. This is the very
definition of prejudice.
To establish prejudice under Strickland v. Washington, 466 U.S. 688
(1984), a defendant must show a “reasonable probability that, but or
counsel’s unprofessional errors, the result of the proceeding would have
been different” Id at 694. Strickland made clear that the “result of the
16

proceeding” refers to the outcome of the defendant’s prosecution as a whole.
It defined “reasonable probability” as “a probability sufficient to undermine
confidence in the outcome”. Id at 691.
Here there was erroneous and dangerously inadequate legal advice
given to a client facing serious criminal charges which could result in
decades of time in prison. Such a situation certainly undermines confidence
in the outcome. This type of erroneous legal advice was found to constitute
Strickland error in Laffler v. Cooper, 566 U.S. 166 (2012). There a state
prison inmate had rejected a plea bargain based upon erroneous legal advice.
At trial he was convicted and received a much higher sentence. This Court
found that both prongs under Strickland had been satisfied resulting in
prejudice to the defendant. Id at 171.
CONCLUSION
Wherefore, it is respectfully requested that the Court grant the petition
herein.
Respectfully Submitted:
Robert W. Wood
Counsel of Record
2080 West Ridge Road
Rochester, New York 14626
(585) 227-9830
Robertwoodatty@yahoo.com

17

Addendum

APPENDIX A

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page1 of 8

18-288; 18-3703
United States v. Sandford

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT=S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
29th day of May, two thousand twenty.
Present:
BARRINGTON D. PARKER,
DEBRA ANN LIVINGSTON,
JOSEPH F. BIANCO,
Circuit Judges.
_____________________________________
UNITED STATES OF AMERICA,
Appellee,
v.

18-288
18-3703

JAMES EDWARD SANDFORD, III, AKA MALICE,
Defendant-Appellant,
EDWARD M. SANDFORD, AKA EDDIE,
Defendant.
_____________________________________

For Appellee:

BRETT A. HARVEY (Tiffany H. Lee, on the briefs),
Assistant United States Attorneys, for James P.
Kennedy, Jr., United States Attorney for the Western
District of New York, Rochester, NY

1

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page2 of 8

For Defendant-Appellant:

ROBERT WALTER WOOD, Law Office of Robert W.
Wood, Rochester, NY

Appeal from a judgment of the United States District Court for the Western District of New
York (Larimer, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED IN PART and REMANDED.
James Edward Sandford, III, appeals from a January 29, 2018 judgment and a December
7, 2018 order.

Sandford was charged with ten counts related to possession and distribution of

synthetic marijuana in violation of 21 U.S.C. §§ 841, 846, 859, and 860, and one count each of
possession of a firearm in furtherance of a drug trafficking crime in violation of 18 U.S.C.
§ 924(c)(1)(A)(i), being a felon in possession of a firearm in violation of 18 U.S.C. § 922(g)(1),
possession of a stolen firearm in violation of 18 U.S.C. § 922(j), and witness tampering in violation
of 18 U.S.C. § 1512(b)(1). Following trial, the jury deadlocked on all of the drug-related charges,
including possession of a firearm in furtherance of a drug trafficking crime.
convicted Sandford on the other two firearms charges and witness tampering.

But the jury

The district court

ultimately imposed a total sentence of 156 months of imprisonment and a $1,000 fine. On appeal,
Sandford challenges certain evidentiary rulings at trial, the jury instruction as to the felon in
possession count, the district court’s calculation and explanation of his sentence and fine, and the
effectiveness of his counsel during the plea-bargaining process.

We assume the parties’

familiarity with the underlying facts, the procedural history of the case, and the issues on appeal.
I.

Evidentiary Rulings

Sandford challenges two of the district court’s evidentiary rulings at trial. First, he claims
that the district court erred by allowing Sandford’s wife, Alisha Wheeler, to testify that Sandford

2

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page3 of 8

sold heroin before selling synthetic marijuana. Second, Sandford contends that the district court
erred in admitting certain Facebook posts wherein he defended his selling of synthetic marijuana.
Specifically, Sandford argues that both were improperly admitted under Federal Rule of Evidence
404, as the testimony regarding the heroin sales amounted to evidence of a prior crime and the
Facebook posts were used as character evidence.

Evidentiary rulings are reviewed for abuse of

discretion. United States v. Lebedev, 932 F.3d 40, 49 (2d Cir. 2019).
Turning first to Wheeler’s testimony about Sandford’s prior acts of narcotics trafficking,
we find no abuse of discretion in the district court’s decision to allow her testimony. Sandford’s
defense at trial was that he did not know that synthetic marijuana was illegal. But Wheeler’s
testimony established that he had involved his wife in trafficking illicit narcotics and continued to
involve her in largely the same manner when trafficking synthetic marijuana.

As the district court

concluded, her testimony regarding their past relationship and how it developed was relevant to
the disputed issue of Sandford’s knowledge that synthetic marijuana, like heroin, is a controlled
substance. That conclusion was not an abuse of discretion.
Sandford further contends that the admission of certain Facebook posts violated Rule
404(a).

Sandford concedes that he failed to object to the admission of this evidence, so we review

for plain error.
1904–05 (2018).

See Fed. R. Crim. P. 52(b); Rosales-Mireles v. United States, 138 S. Ct. 1897,
We discern no plain error in the district court’s decision to admit the Facebook

posts, in which Sandford was criticized for “killing kids” and “destroying their lives” through his
sale of synthetic marijuana. 18-288 App’x 216–18. 1

1

He defended his actions by saying that he

“18-288 App’x” refers to the Appendix filed in United States v. Sandford, No. 18-288, Doc. Nos. 35–36
(2d Cir. Aug. 28, 2018). “18-3703 App’x” refers to the Appendix filed in United States v. Sandford, No.
18-3703, Doc. Nos. 36–37 (2d Cir. May 14, 2019).

3

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page4 of 8

“keep[s] the price down” and “feed[s] a lot of friends and family with the money [he] make[s].”
18-288 App’x 216–18.

Sandford contends that these posts evince such a high degree of

callousness that the jury consequently punished him for that character trait even in the absence of
other evidence.

But Rule 404(a) only prohibits admitting evidence “to prove that on a particular

occasion the person acted in accordance with the character or trait.”

Fed. R. Evid. 404(a)(1).

The examples given in the 1972 Advisory Committee Notes to Rule 404(a) are illustrative:
“evidence of a violent disposition to prove that the person was the aggressor in an affray, or
evidence of honesty in disproof of a charge of theft” is not permissible. It is not clear or obvious
that disregard for the well-being of others suggests that an individual has a propensity to knowingly
deal an illicit substance, particularly where the evidence would otherwise be admissible to prove
that Sandford did, in fact, sell synthetic marijuana.

See Fed R. Evid. 801(d)(2).

Thus, the

district court did not commit plain error by admitting the Facebook posts.
II.

Jury Instructions

Sandford next argues that his conviction for being a felon in possession of a firearm should
be vacated in light of Rehaif v. United States, 139 S. Ct. 2191 (2019)—an argument he presents
for the first time on appeal.

Our recent decision in United States v. Miller, 954 F.3d 551 (2d Cir.

2020), forecloses this argument. In Miller, we held, on plain error review, that a defendant who
“stipulate[d] to the existence of his prior felony in order to prevent its details . . . from being placed
before the jury” could not successfully mount a Rehaif challenge.

Id. at 558.

Similarly, here,

“rejecting [Sandford’s] argument will [not] seriously affect the fairness, integrity, or public
reputation of judicial proceedings” because, looking beyond the trial record, “we have no doubt
that, had the Rehaif issue been foreseen by the district court, [Sandford] would have stipulated to
knowledge of his felon status to prevent the jury from hearing evidence of his actual sentence.”

4

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page5 of 8

Id. at 559–60.

Indeed, Sandford has three prior felony convictions.

Sandford ultimately served over one year in prison.

For two of these felonies,

In short, Miller controls, so Sandford’s

Rehaif claim fails.
III.

Sentence

Sandford claims that the district court erred in calculating his criminal history score by
adding two points for the misdemeanor of aggravated unlicensed operation of a motor vehicle as
opposed to one point. The government concedes that, because the maximum sentence for that
misdemeanor is thirty days, only one point should have been added.

“A district court commits

procedural error where it . . . improperly calculates[] the Sentencing Guidelines range,” although
such an error may be harmless if “the record indicates clearly that the district court would have
imposed the same sentence in any event.”

United States v. Cramer, 777 F.3d 597, 600–01 (2d

Cir. 2015). It is not clear to us, on the present record, that the district court would have imposed
the same sentence if it knew of the error in calculating Sandford’s criminal history score. The
district court indicated that it believed Sandford’s score was 18, one point higher than the erroneous
score calculated by the Probation Department and two points higher than Sandford’s actual score.
Even though Sandford would have fallen into the same criminal history category whether his score
was 16 or 18, the district court may not have departed upward so significantly if it correctly
calculated Sandford’s criminal history score. Accordingly, we remand to the district court for
the limited purpose of resentencing Sandford in light of the correct criminal history score. We
note, however, that we find no error in the district court’s decision to consider the conduct
underlying the charges on which the jury deadlocked, see United States v. Watts, 519 U.S. 148,
157 (1997) (per curiam), the harm to the community caused by Sandford’s trafficking in synthetic
marijuana, its finding that Sandford knew that synthetic marijuana was illegal, and Sandford’s

5

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page6 of 8

extensive criminal history in its decision to depart upward. We merely require that the district
court assess those factors against the backdrop of a properly calculated criminal history score.
IV.

Fine

Sandford next argues that the district court failed to consider evidence of his ability to pay
in imposing a $1,000 fine and therefore the fine was improperly imposed. We disagree.
defendant bears the burden to show indigence that will avoid imposition of a fine.”
v. Corace, 146 F.3d 51, 56 (2d Cir. 1998).

“[T]he

United States

Accordingly, “the sentencing judge must afford the

defendant an opportunity to present evidence of his financial inability to pay a fine.” Id.

But

where, as here, a defendant refuses to disclose certain information at the sentencing phase, that
“lack of disclosure” cannot “work to his advantage on an appeal from that sentence.”
States v. Tocco, 135 F.3d 116, 133 (2d Cir. 1998).

United

Sandford refused to answer any of the

Probation Department’s questions regarding his ability to pay, and, while he articulated concerns
regarding the possible imposition of a fine in his sentencing memorandum, he failed to provide
any evidence supporting his claim. Under these circumstances, we discern no error in the district
court’s decision to impose a $1,000 fine based on the Probation Department’s unchallenged
recommendation that such a fine could be paid while Sandford is incarcerated through the Inmate
Financial Responsibility Program or while on supervised release.

See United States v.

Hernandez, 85 F.3d 1023, 1031 (2d Cir. 1996) (no plain error where defendant ordered to pay fine
out of money earned in prison).
V.

Ineffective Assistance of Counsel

Finally, Sandford argues that his counsel throughout the plea negotiations—his third
counsel in the proceedings—was ineffective. Sandford claims that his counsel failed to inform
him that the district court could consider all relevant conduct—including the deadlocked drug

6

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page7 of 8

charges—at sentencing, which led Sandford to reject plea offers he otherwise would have
accepted. “To demonstrate that counsel was constitutionally ineffective, a defendant must show
that counsel’s representation ‘fell below an objective standard of reasonableness’ and that he was
prejudiced as a result.” Lee v. United States, 137 S. Ct. 1958, 1964 (2017) (quoting Strickland v.
Washington, 466 U.S. 668, 688, 692 (1984)). “We review de novo the issues of whether the
defendant has met the two prongs of the Strickland test; we review the district court’s ultimate
decision on a Rule 33 motion for abuse of discretion.”
70 (2d Cir. 2019).

United States v. DiTomasso, 932 F.3d 58,

Although we usually decline to decide ineffectiveness claims on direct review,

we may entertain such claims “where: (1) as here, the defendant has a new counsel on appeal; and
(2) argues no ground of ineffectiveness that is not fully developed in the trial record.”

United

States v. Yauri, 559 F.3d 130, 133 (2d Cir. 2009) (per curiam) (citation omitted).
Exercising that discretion here, and assuming, arguendo, that Sandford’s counsel’s
performance fell below an objective standard of reasonableness, we conclude that Sandford has
failed to establish prejudice stemming from his counsel’s performance. Sandford admitted that
he was fully apprised of the relevant statutory maximum sentences he faced.

And Sandford’s

counsel confirmed that he told Sandford that he could be sentenced to between fifteen- and twentyfive-years’ imprisonment. See United States v. Arteca, 411 F.3d 315, 321 (2d Cir. 2005) (no
prejudice where defendant informed “that in any event the court could impose a sentence . . . up
to the statutory maximum of 20 years”).

Moreover, Sandford’s own testimony regarding whether

he would have accepted a plea offer that guaranteed a lower sentence is equivocal at best.
Sandford testified both that he was aware that a ten-year sentence was possible and that, “[i]f [he]
knew [he] could get more than 70 to 87 months, [he] would have [taken] the 70 to 87 months.”
18-3703 App’x 207–08.

Accordingly, the district court properly rejected Sandford’s “post hoc

7

Case 18-288, Document 154-1, 05/29/2020, 2850092, Page8 of 8

assertions . . . about how he would have pleaded but for his attorney’s deficiencies,” particularly
in the absence of Sandford’s failure to produce any “contemporaneous evidence to substantiate”
his purported preferences. Lee, 137 S. Ct. at 1967.
*

*

*

We have considered Sandford’s remaining arguments and find them to be without merit.
Accordingly, we AFFIRM IN PART the judgment of the district court, and REMAND to the
district court with instructions to resentence Sandford if, applying the correct criminal history
score, it concludes that a different sentence is appropriate.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

8

APPENDIX B

Case 18-3703, Document

r

05/1412r 9, 2563782, Page39 of 48

SPA-1

vo..:>c

v . .L•r"-•-uo..Lu..L-u\..::IL-IVIWt-'

uocument 329 Filed 12/07/18 Page 1 of 10

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

UNITED STATES OF AMERICA,
DECISION AND ORDER
Plaintiff,
15-CR-61 OIL

v.

JAMES EW ARD SANDFORD,
Defendant.

Defendant James Sandford ("Sandford") was indicted by Superseding Indictment (Dkt.
#105) filed on March 15, 2016, charging him in eleven counts of distributing a controlled
substance, two counts charging firearm offenses and a single count of witness tampering.
Defendant was represented commencing in about March, 2016 by attorney Matthew Nafus, Esq.
("Nafus"), Nafus was the third lawyer tasked with representing this defendant.
A jury trial commenced on January 4, 2017 and after a twelve-day trial, defendant was
convicted on the two firearms counts and the single count of witness tampering. The jury was
unable to agree on all of the narcotics-related counts and a mistrial was declared.
In due course, the Probation Department filed a Presentence Report ("PSR") (and later a

revised PSR). Based on that report and its high guideline range recommendation, Sandford
addressed the Court on July 27, 2017 in open court and read a lengthy letter (Dkt. #219). In
essence, Sandford claimed that Nafus had provided ineffective assistance of counsel and he
requested new counsel or be allowed to proceed pro se. Thereafter, Nafus was relieved from any
further responsibility on the file based on Sandford's charges against him.

Case 18-3703, Document

r

D5/1412r 9, 2563782, Page40 of 48

SPA-2

ve>..>C u ........ - ....

-vV.LV.L-U~L-IVIVVI"'

uocumen t ;j£~

t-llea 1Z/U7/18 Page 2 of 10

Several months later, on October 24, 2017 (Dkt. #235), Sandford filed, pro se, a motion
pursuant to Fed. Crim. P. Rule 33 for a new trial. A motion alleged that attorney Nafus had
provided ineffective assistance of counsel, which prejudiced the defendant. The gist ofthe motion
was that Nafus had not properly advised Sandford of the risks of proceeding to trial and the
potential penalties that could result.
The Government responded to the motion (Dkt. #239) and suggested, among other things,
that the motion was premature since Sandford had not yet been sentenced by the court and,
therefore, it was unclear whether the dire consequences claimed by Sandford would come to pass.
The Court concurred and the parties proceeded to prepare for sentencing.
On January 22, 2018, after a lengthy sentencing proceeding, Sandford was sentenced to a
term of 13 years on Count 14 (witness tampering) and two 10-year sentences on the two firearms
offenses (Counts 12 and 13), all to run concurrently for an aggregate sentence of 13 years.
Sandford filed an appeal from that Judgment and that appeal is still pending. New counsel
was appointed by the Second Circuit Court of Appeals to represent Sandford on the appeal.

In spite of the fact that the appeal is pending, this Court determined, in a Decision filed on
April 2, 2018 (Dkt. #280), that it had jurisdiction to consider the Rule 33 motion and, therefore,
the Court scheduled a hearing on the matter for May 30, 20 18. The Court appointed yet another
lawyer, Robert Wood, Esq. - the sixth lawyer that has represented Sandford in this case- to
represent Sandford at the May 30th hearing.
At the hearing, two witnesses testified: the defendant Sandford and Attorney Nafus. Both
sides submitted exhibits, including transcripts of several court proceedings. Defendant and the
Government filed post-hearing legal memoranda, which the Court has considered and reviewed. 1

1

Sandford was given an opportunity to file his own prose memorandum but he has not done so.

2

Case 18-3703, Document

1805114/?r

9, 2563782, Page41 of 48

SPA-3

\,Gl~~ o.J.o-~.;r-uowJ.-u~L-MWI-'

uocument 329 Flied 12/07/18 Page 3 of 10

Defendant's motion under Rule 33 did not seek a "new trial" on all of the charges, but
rather requested that he be allowed to now "take" one of the several plea offers presented by the
Government during the several months prior to trial, and be sentenced according to those offers
rather than to the term imposed by this Court on January 22, 2018.
Sandford has failed to carry his burden of demonstrating that Nafus provided ineffective
assistance of counsel.

After considering all of the evidence from the hearing and the

above-referenced memoranda, I find that the defendant has failed to establish that his trial attorney
provided ineffective assistance of counsel under the standards set forth by the United States
Supreme Court in Strickland v. Washington, 466 U.S. 668 ( 1984). To the contrary, I find the
evidence demonstrates careful and competent advice in a complex case involving a very difficult
client. Therefore, I find the defendant has failed to establish either prong of the Strickland test:
( 1) he has failed to demonstrate that counsel 's performance was deficient; and (2) he failed to show
or demonstrate any prejudice resulting from counsel's performance. Defendant's motion pursuant
to Rule 33 is in all respects denied.

DISCUSSION
Although presented differently from time-to-time, defendant's principal claim now is that
he received incomplete or insufficient advice prior to trial and subsequent to it, and therefore did
not accept various guilty plea offers that had been made by the Government. As mentioned,
although defendant's motion is styled as a motion for a new trial, the requested relief is that he be
resentenced according to the terms of one of the plea offers, 70-87 months, which of course is
much lower than the sentence Sandford actually received by the Court.
After reviewing the testimony at the hearing on the motion, as well as the post-hearing
memoranda, and in view of the prior record and numerous court appearances where pleas were
3

Case 18-3703, Document

'-'Cl:>~ O.J.O-t.;I-V OJ.VJ.-U\..: IL-IVIVVt"

r

;~~:tr 9, 2563782, Page42 of 48

UOCUmen t

.j~~

t-lleO

l.~/UI/l.'d

t-'age 4 0T lU

discussed, it is clear that defendant's motion is little more than a classic case of buyer's remorse.
The evidence is clear, and of record, that defendant was advised several times of proposed plea
offers and he rejected each and every one of them. This rejection carne after Sandford had been
advised repeatedly on the record by the Government and this Court as to the nature of the plea
offer and the maximum penalties Sandford faced should there be a conviction.
In the Strickland case, the United States Supreme Court established a performance and

prejudice test for the Court to analyze in determining whether trial counsel in a criminal case
provided ineffective assistance. The burden is clearly on the defendant. The test is often described
as a two-prong test.

The defendant, who carries a heavy burden, must prove that counsel's

performance was deficient, that is that it fell below an objective standard of reasonableness and
also that the alleged deficient performance prejudiced the defense.
Both prongs must be satisfied. Sandford has failed to prove either here.
Concerning allegations of ineffective assistance, defendant must show more than
differences of strategy and the errors must be serious and material. As to the second prong under
Strickland, defendant must show that because of the deficient performance he sustained prejudice.

Often where it is clear defendant has suffered no prejudice, therefore failing to establish
the second prong under Strickland, a reviewing court can dispose of the motion without
considering whether the performance was defective. In this case, as the Government points out in
its thorough Post-Hearing Submission In Response to Defendant's Motion Pursuant to Rule 33,
Dkt. # 327 (hereinafter "Gov't. Response") at pp. 6-7, Sandford has failed to show any prejudice
in at least two respects. Sandford seems to suggest that he received ineffective assistance because
he was not advised that sentences on the firearm counts could run consecutively.

As the

Government notes, all of the Court's sentences were imposed concurrently, and therefore Sandford

4

Case 18-3703, Document

r

05114/?r 9, 2563782, Page43 of 48

SPA-5

va;:,~:: o . .Lo-l;r-uol.ul.-Ul:iL-MWf-1

Document 329 Filed 12/07/18 Page 5 of 10

suffered no prejudice. Based on the testimony at the hearing, however, I accept attorney Nafus's
testimony that Sandford was fully advised of the sentencing options presented to the Court.
The second matter relates to defendant's insistence that he was never advised that the Court
could use the so-called cross-reference Sentencing Guideline rules under Section 2K2.1 (c). It was
under this Section that the Probation Department determined Sandford's Guideline range to be
exceptionally high, 360-480 months imprisonment. The record is clear that attorney Nafus filed
objections to the Presentence Report challenging Probation's determination on this point. More
to the point, this Court rejected those calculations as well and did not use the cross-reference
section at all and, therefore, determined Sandford's Guideline Range to be literally decades lower
than what had been determined to be the case by Probation. Therefore, Sandford complains now
and seeks relief for a sentencing consequence that never occurred. There is no prejudice here and
therefore that part of Sandford's claim must be rejected and denied.

Maximum Penalties
Sandford's claim that he did not receive information from counsel as to the maximum
penalties is belied by numerous transcripts of court proceedings. The Government, charitably,
describes this claim as "a complete fiction."

(Gov't. Response, at p. 7).

Sandford was

cross-examined by Government's counsel at the Rule 33 hearing and he admitted knowing what
the statutory maximums were (Gov't. Response, Exhibit (hereinafter "Ex.") 1), Tr. of 5/30/18, at
pp. 70, 97). 2
Transcripts of court proceedings show that Sandford was repeatedly advised of his
maximum exposure. This occurred at defendant's initial appearance on the original indictment

2

Exhibits 1-11 are attachments to the Gov't. Response.

5

Case 18-3703, Document

r

D5!1 412r 9, 2563782, Page44 of 48

SPA-6

~a:s~ o:.L::>-l;r-uoLuL-Ul:lL-IVIVVI-'

uocument :.:SL~ Hlea lLIUI!ltl Page 6 of 10

(Gov't. Response, Ex. 2; Tr. of7/15/15, at pp. 3-8). Thereafter, upon defendant's arraignment on
the Superseding Indictment on March 22, 20I6, he was once again advised of the maximum
penalties. (See Gov't. Response, Ex. 3, Tr. of 3/22/ I6, at pp. 5-8).
Pretrial offers to dispose of the indictment were discussed with defendant and his attorney
for over several months prior to commencement of the trial in January 2017. The parties met in
court several times during that period and on each occasion discussion of a plea offer was
broached, as well as the significant exposure faced by Sandford should he be convicted on all
charges.
The offers varied a bit but in each case they were emphatically rejected by Sandford often
with a "counteroffer" for a lesser sentence. All of the offers made by the Government were
submitted to Sandford and he does not now claim otherwise.
The first proposal was contained in an exchange of emails between the then-prosecutor,
Jennifer Nato, and defense counsel (Gov 't. Response, Ex. 8). The proposal was a plea to a
violation of 18 U.S .C. § 922(g) with a 10-year term of imprisonment. The parties appeared before
this Court on September 20, 20I6, shortly before the then-scheduled trial and the Government
placed on the record defendant's exposure under the statute and the Sentencing Guidelines, as well
as the plea offer (Gov't. Response, Ex. II , Tr. of9/20/1 6). The proposal presented was for a plea
to one count of a felon-in-possession (Section 922(g)) with an agreed-upon range under Federal
Criminal Procedure 11(c)(1)(C) of 7-10 years imprisonment (Gov't. Response, Ex. 11, Tr. of
9/20/ I6, at p. 4). Defense counsel confirmed that the offer had been conveyed but the defendant
was "not interested" (Gov 't. Response, Ex. II, Tr. of9/20/ I6, at p. 7). Sandford himself confirmed
his understanding of the offer and his rejection of it, stating that "I'm not guilty, your Honor"
(Gov't. Response, Ex. 11, Tr. of 9/20/ I6, at p. 6).

6

Case 18-3703, Document

1805/14/2r

9, 2563782, Page45 of 48

SPA-7
...,o.~c u . .Lo-~r-uo.Lu.L-UuL-MVVt-'

uocumen t J29 Filed 12/07/18 Page 7 of 10

The prosecutor then also presented a detailed summary of the statutory maximum penalties,
as high as 40 years, if convicted of selling drugs with I ,000 feet of a school and that the Sentencing
Guidelines could be as much of 324-405 months on the drug charges (Gov ' t. Response, Ex. 11,
Tr. of9/20/16 , at p. 5).
The parties next appeared at a status conference before trial on December 1, 2016.3 By
then AUSA Noto had left the office and a new prosecutor, Brett Harvey, was assigned to the case.
At that time, Harvey announced a somewhat more lenient plea offer. Under that proposal,
defendant would plead to one count of Section 922(g) and his exposure would be 70-87 months
(Gov' t. Response, Ex. 4, Tr. of 12/ 1116, at p. 4). AUSA Harvey stated that he had "been talking
periodically with Mr. Nafus" about the new offer. (!d. at p. 4). Once again, Sandford was advised
of the high Guideline calculation of 324-405 months if convicted on the drug charges. The
Government agreed to keep the offer open for a day or so since trial was fast approaching.
Sandford then volunteered that "we're close" when the Court inquired if he was interested at all in
a disposition. (Gov't. Response, Ex. 4, Tr. of 12/ J/16, at p. 8).
Later that month, on December 29, 2016, the parties appeared in Court for a pretrial
conference in anticipation of the trial start on January 4, 2017 (Gov't. Response, Ex. 6, Tr. of
12/29/16). The Court then confirmed that defendant was not interested in the plea that had been
offered and that the case would then proceed to trial. However, even after trial had commenced,
the parties continued to discuss a plea. On January 5, 2017, the prosecutor, Harvey, advised the
Court that "a revised" plea offer had been made to the defendant after court on the previous day.
Alternate versions had been proposed with an agreed-upon sentencing range under Federal

3

The trial had been adjourned for several months in the hope that the Second Circuit might decide a case
before it
involving the same or similar drugs as those in Sandford 's Indictment. As it turned out, that clarifying
decision
(United States v. Demott, 906 F.3d 231) was not issued until October 9, 2018 , well after the trial and sentencing
of
Sandford.

7

Case 18-3703, Document

r

0511412r 9, 2563782, Page46 of 48

SPA-8

vo..-:>c

v . ..L;.r'-•-v v..Lu.J..- uuvrvrvv t"'

uul;um em

,j.O:::l:l

t-llea 1.£./UIIl .'d

1-'age

~at

lU

Criminal Procedure 11(c)(1)(C) ofbetw een 72-84 or 70-87 months (Gov't. Respon
se, Ex. 7, Tr.
of 115117, at p. 2). Nafus advised the Court at that time that Sandford was not
interested in the
offers.
At the hearing on the Rule 33 motion, Nafus testified at this point during trial,
since he was
very familiar with the case and its weaknesses, he told Sandford that he should "serious

ly consider"

taking the 70-87 month offer. Sandford refused.
Now, after rejecting the plea offers that had been made numerous times prior
to trial,
Sandford asks this Court to give him the benefit of such a plea. There is no justifica
tion whatsoever
for such relief. Defendant made his choice; he knew the risks and he elected
to take his chances
at trial.
Sandford was actively involved in his case and was knowledgeable about the
statute and
the Guidelines, although it appears that he had a more optimistic view of his case

than anyone else.

At the hearing on defenda nt's Rule 33 motion, his attorney, Nafus, discussed
the numerous times
that he and Sandford discussed the case and the risk of going to trial. (Gov't. Respon
se, Ex. 1, Tr.
ofS/30/18, at pp. 99-103 , 120).
Nafus is a very experienced criminal defense lawyer who has practiced in
this Federal
Court and in local state courts for decades . He was an Assistant District Attorne
y for 9 years and
has been in private practice for 12 years, doing criminal defense work.
Nafus testified that
defendant was a very difficult client and that he repeatedly went over many
facts about the case
and the potential outcomes with Sandford. He estimated that he visited Sandfor
d, who was in
custody, 35-36 times during the course ofhis 15-months representation.
Sandford rejected all plea offers, but did make counteroffers, at one time to
57 months.
Nafus advised Sandford that he had the highest criminal history category (VI) and

8

he told Sandford

Case 18-3703, Document

r

05114/?r 9, 2563782, Page4 7 of 48

SPA-9

vd~~ o:.Lo-G r-uo.lu.l -UuL-M WJ-J

uocum ent 329 Filed 12/07/18 Page 9 of 10

that there were several aggravating factors that might impact sentencing adverse
ly. For example,
Sandford was selling very powerful drugs to 14 to 16-year-old teenagers and that
he had used his
family members to sells drugs as well. Nafus testified that he told Sandford
repeatedly that the
Guidelines were advisory only and that he never promised Sandford that he would
get a particular
sentence, especially a sentence below that offered to settle the case, after trial.
As trial became imminent, Nafus told Sanford that the risks were too great;
he advised
Sandford not to risk going to trial over merely a one-year difference between
what was offered
and what was acceptable.
I accept the testimony of Nafus as to the scope and extent of his advice to Sandfor
d. He
did what a good lawyer would do; he explained all the options and gave the
client his view that
the offer made just before trial should be accepted. Defendant was of course
free to reject that
advice, but he obviously did so at his peril.
I do not credit Sandfo rd's version presented at the Rule 33 hearing . Such testimon
y at such
a proceeding after trial and sentencing is always suspect. It appears clear now
that defendant has
second thoughts about not taking the plea when it had been offered. He failed
to listen to his
lawyer and now wants the Court to give him the benefit of the bargain that he
rejected numerous
times. After reviewing Sandfor d's testimony and the admissions he made at the
hearing, I do not
find his testimony credible concerning his claims that Nafus promised that
he would receive a
sentence lower than the plea offers after trial. Such a claim strains credulity.
In sum, this case
really boils down to nothing more than "buyer' s regret." Sandford made a choice
to proceed to
trial, contrary to the advice of his lawyer and now seeks relief in this Court by
turning against his
lawyer, a lawyer who performed remarkably well at the trial obtaining a hung
jury on the various
serious drug counts.

9

Case 18-3703, Document 38 05/14/2019, 2563782, Page48 of 48

I SPA-10

va~t: O • .L0-(,;1-UO.LU.l-U~L-MWI-'

LJocument 329 Filed 12/07/18 Page 10 of 10

CONCL USION
Defend ant's motions for a new trial (Diet. ##235, 282 4) are in all respects DENIE
D.
IT IS SO ORDER ED.

Dated: Rochester, New York
December 7, 2018.

DAVID G. LARIM ER
United States District Judge

4

On May 8, 2018 (Dkt. #282), just prior to the scheduled hearing on defendant ' s Rule
33 motion concerning
alleged ineffective assistance of counsel of attorney Nafus, Sandford filed a four-page
affidavit complaining about
the way two other of his prior attorneys handled portions of the case. One dealt with
pretrial matters and the other
with sentencing.
Such matters were never discussed fwther or pursued at the hearing on the Rule 33
motion. Defendant has made
allegations and challenged many activities ofthe half-a-dozen attorneys that represent
ed him at various portions of
the case. But, in any event, there is no merit to these present claims that were raised
but not pursued.
Two of the matters relate to possible suppression issues concerning seizure of a firearm
from a storage unit and
relating to the initial traffic stop of defendant. These were litigated before a magistrat
e judge and this Court. The
matters complained of now to some extent were tactical decisions made by then counsel.
There was a full
opportunity to litigate the matters and that occurred . At trial, defendant's mother, who
testified for the Government
advised that she consented to the search of the storage unit where the stolen weapon
was found . In any event, there
was ample evidence from other witnesses connecting defendant to the purchase of
the stolen shotgun for a few bags
of drugs.
Concerning sentencing, there were lengthy proceedings on sentencing issues. Defendan
t 's then-attorney James
Riotto did file a Sentencing Memorandum (Dkt. #257), although for most of the proceedin
gs prior to sentencing,
Sandford elected to proceed pro se. At sentencing, the Court did impose an upward
departure to a degree. The
parties were given notice by Text Order of July 14, 2017 (Dkt. #215) to be prepared
to discuss whether the facts
supported an upward departure or variance. Therefore, the parties had notice of this
possibility. But, in any event,
as the United States Supreme Court determined in Un ited States v. Irizarry, 553 U.S.
708 (2008), a sentencing court
need not now notify the parties of its intent to impose a non-Guidelines sentence.

10

APPENDIX C

Case 6:15-cr-06101-DGL-MWP Document 207

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

UNITED STATES OF AMERICA,

Plaintiff,
DECISION AND ORDER
15-CR-6101L
v.
JAMES EDWARD SANDFORD III,

Defendant.

Defendant James Edward Sandford III ("Sandford") proceeded to trial on a multi-count
indictment charging narcotics and firearms violations. On January 20, 2017, he was found guilty
on three counts of the indictment, Count 12 (Felon in Possession of a Firearm), Count 13
(Possession of a Stolen Firearm), and Count 14 (Witness Tampering). The jury was unable to
reach a verdict on the remaining counts of the indictment and a mistrial was declared and the
jury discharged. Sandford now moves (Dkt. # 193) for a Judgment of Acquittal pursuant to FED.
R. CRIM. P. 29 on the grounds that the Government failed to produce sufficient evidence to
sustain a conviction on some of the counts.
The motion addresses the three counts that resulted in a conviction, as well as two
counts, Counts 6 and 7, which were counts upon which the jury was unable to agree. The
Government has filed a Response (Dkt. # 199) to the motion.

Case 6:15-cr-06101-DGL-MWP Document 207 Filed 05/25/17 Page 2 of 4

I have carefully reviewed the pending motion and the Government's Response, as well as
my notes from the trial. The law is clear that a defendant bears a heavy burden to overturn a
conviction on the grounds that there was insufficient evidence.

The test is whether after

reviewing the evidence in the light most favorable to the Government, any rational trier of fact
could have found the essential elements beyond a reasonable doubt. Jackson v. Virginia, 443
U.S. 307, 319 (1979). In light of this standard, defendant's motion is denied.
Concerning the motion as to Counts 6 and 7, the defendant argues that there was a lack of
proof as to whether a controlled substance was sold to a minor as charged in the indictment.
Testimony relating to that count came from two witnesses, Jonathan Connelly and Dustin White.
In addition, there were some Facebook communications and testimony of other witnesses who
observed the transfer of the shotgun in question. Although the drugs that were received from the
defendant as part of the sale and transfer of the firearm were not recovered and tested, the
witnesses testified that they were packaged in the same manner as other drugs sold and used by
the witnesses. The witnesses identified several different brands which were clearly labeled on the
packages themselves and these brands were similar to numerous other such packages distributed
and possessed throughout the case, many of which were in fact submitted for chemical analysis
which demonstrated their illegal character.
I believe the jury, relying on both direct and circumstantial evidence, could conclude that
these labeled drugs had the same properties as other similarly labeled drugs which were found to
contain contraband.

In light of the relationship between the parties and the transfer of the

shotgun in question, I believe a rational trier of fact could have concluded, as to Count 6, that the
defendant did distribute a controlled substance to a minor in consideration for receipt of the

2

Case 6:15-cr-06101-DGL-MW P Document 207

Filed 05/25/17

Page 3 of 4

shotgun. Therefore, Count 7 withstands scrutiny as well. The jury could have found that a
firearm was possessed or used in connection with the drug trafficking crime charged in Count 6.
Of course, the jury was unable to reach a verdict on these two counts but, nevertheless, I believe
the evidence was sufficient for a rational trier of fact to have found guilt.
Defendant also moves for a judgment of acquittal on those counts which resulted in a
conviction, Counts 12, 13 and 14.
Considering the evidence in the light most favorable to the Government, I believe the
evidence on all counts is sufficient. Counts 12 and 13 relate to defendant's possession of the
stolen shotgun and was supported by the testimony of several witnesses who described the theft
of the shotgun and the transfer of it to the defendant.

There was proof that he had been

previously convicted of a felony and, therefore, was prohibited from possessing the shotgun.
The evidence was clear that the witnesses Connelly and White testified about the theft of the
shotgun from Connelly's grandmother's house and the exchange of that firearm for two and onehalf bags of synthetic marijuana. Defendant was in possession of the shotgun at that time and
others testified that he was in possession of the firearm at various times after the sale.

In

addition, there was evidence concerning statements made by the defendant relative to his
obtaining the shotgun.
Defendant also challenges the verdict on Count 14, the Witness Tampering Count. In my
view, the evidence supported the jury's verdict on that count. Viewing the evidence in the light
most favorable to the Government, there was testimony that defendant yelled out a threat to
Connelly who Sandford described as a "snitch." The inference was clear that Sandford intended
to come after Connelly. Considering all the evidence, including the nature of the statements, the

3

Case 6:15-cr-06101-DGL-MWP Document 207 Filed 05/25/17 Page 4 of 4

effect it had on the victim Connelly, and other circumstances in the case, I believe a rational trier
of fact could have found that such activity constituted tampering with a witness as charged in
Count 14.

CONCLUSION

Defendant's motion (Dkt. #193) for a Judgment of Acquittal as to Counts 6, 7, 12, 13 and
14 are in all respects denied.
IT IS SO ORDERED.

Dated:

May~, 2017
Rochester, New York

DAVID G. LARIMER
United States District Judge

4

